Report No. DoDIG-2012-101                  June 13, 2012




   Acquisition of the Navy Organic Airborne and Surface
           Influence Sweep Needs Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AMCM                          Airborne Mine Countermeasures
COMOPTEVFOR                   Commander, Operational Test and Evaluation Force
CPD                           Capability Production Document
EMD                           Engineering and Manufacturing Development
JCIDS                         Joint Capabilities Integration and Development System
LRIP                          Low-Rate Initial Production
N8                            Deputy Chief of Naval Operations for Integration of
                                  Capabilities and Resources
NSWC-PC                       Naval Surface Warfare Center-Panama City
OASIS                         Organic Airborne and Surface Influence Sweep
PEO                           Program Executive Officer
PEO (LCS)                     Program Executive Officer, Littoral Combat Ships
PM                            Program Manager
TEMP                          Test and Evaluation Master Plan
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500
                                                                             JUN 1 3 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Acquisition of the Navy Organic Airborne and Surface Influence Sweep
         Needs Improvement (Report No. DoDIG-20l2-101)

We are providing this report for review and comment. The Organic Airborne and Surface
Influence Sweep (OASIS) is a minesweeping system the Navy will use when mines are difficult
to detect and when avoiding mined areas is not an option. This is the second oftwo reports
addressing the acquisition of the OASIS. The overall expected cost for developing and procuring
the OASIS was $290.5 million. In this report, we determined that the Navy did not finish defining
the capability requirements for the minesweeping system and planned to enter the low-rate initial
production decision review without completing all testing and assessments to show that procured
production units will meet warfighter needs.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We did not receive
management comments from the Navy; however, we revised Recommendation A.2 from the
draft report to clarify that the draft capability production document (CPD) should assess whether
the OASIS program, with reduced shock resistance capacity, is worth the additional investment·
required to continue to completion. We also added a recommendation for reprogramming
OASIS funding if the draft CPD assessment showed that the OASIS should not continue to
completion. Therefore, we request that the Navy provide comments on this repott by July 13,
2012. The comments should state whether you agree or disagree with the findings and
recommendations. If you agree with our recommendations, describe what actions you have
taken or plan to take to accomplish the recommendations and include the completion dates of
your actions. If you disagree with the recommendations or any part of them, please give specific
reasons why you disagree and propose alternative action, if that is appropriate.

If possible, send a portable document format (pdf) file containing your comments to
audacm@dodig.mil. Portable document format copies of your comments must have the actual
signature of the authorizing official. We are unable to accept the ISignedl symbol in place of the
actual signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).



                                          ~~~~.;,~
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. DoDIG-2012-101 (Project No. D2011-D000AE-0129.000)                       June 13, 2012


              Results in Brief: Acquisition of the Navy
             Organic Airborne and Surface Influence
             Sweep Needs Improvement
                                                         the draft Test and Evaluation Master Plan
   What We Did                                           (TEMP) to verify that testing schedules were
   As part of an audit of the Navy’s preparation         synchronized with test planning for the
   of the Organic Airborne and Surface Influence         MH-60S helicopter and that the TEMP
   Sweep (OASIS) program for the low-rate                addressed reliability growth. As a result, the
   initial production (LRIP) decision, we                Navy could commit to acquiring four LRIP
   reviewed the Navy’s efforts to define system          units, costing $15 million, which may not
   requirements and to develop a testing plan to         meet testing needs to support the full-rate
   support procuring the OASIS. The overall              production decision in FY 2015. In addition,
   expected cost for developing and procuring            the Navy plans to acquire 38 more units at a
   the OASIS was $290.5 million.                         cost of $140.6 million.

   What We Found                                         What We Recommend
   The Navy did not update capability                    We recommend the Navy:
   requirements in the draft capability production       • revise the draft OASIS CPD to establish
   document (CPD) after a contractor’s analysis              a realistic shock capability requirement,
   showed the OASIS would not work after                     with cost and mission impacts, and add
   sustaining a shock wave of 65 percent of the              required manufacturing, joint
   shock capability requirement. This condition              capabilities, and threat information to
   occurred because the Navy delayed providing               determine whether the program should
   funds for completing studies to determine the             continue to completion.
   lowest shock requirement needed for OASIS             • revise OASIS exit criteria for the LRIP
   mission effectiveness. Without fully defined              review to include the OASIS
   capability requirements, the Navy cannot                  demonstrating that it meets revised and
   determine whether OASIS is effective,                     realistic shock capability requirements.
   suitable, and affordable to produce and               • update test planning to schedule the
   deploy.                                                   operational assessment of the OASIS
                                                             integrated with the MH-60S helicopter,
   The Program Manager (PM), Mine Warfare,                   to include shock testing, to synchronize
   planned the LRIP decision review to occur                 with test planning for the MH-60S
   before the system completed shock testing and             helicopter and to include a reliability
   iterative (periodically repeated) production              growth plan to support the LRIP
   readiness reviews. This condition occurred                decision review.
   because the PM stated that shock testing
   would delay other testing efforts and                 Management Comments and
   considered a single production reliability            Our Response
   review with earlier design reviews as negating
   the need for the iterative production readiness       Navy did not provide comments to the draft
   reviews. Additionally, the PM canceled and            report issued March 29, 2012. Therefore, we
   did not reschedule an operational assessment          request the Navy provide comments by
   because of delays in completing predecessor           July 13, 2012. See the recommendations table
   testing. The PM and her staff did not review          on page ii.

                                                     i
Report No. DoDIG-2012-101 (Project No. D2011-D000AE-0129.000)          June 13, 2012



Recommendations Table

         Management                   Recommendations        No Additional Comments
                                     Requiring Comment             Required
Deputy Chief of Naval             A.1.a, A.1.b, A.1.c.1,
Operations for Integration of     A.1.c.2, A.1.c.3, A.2
Capabilities and Resources

Assistant Secretary of the Navy   B.1.a, B.1.b
(Research, Development, and
Acquisition)

Program Manager, Mine             B.2.a, B.2.b.1, B.2.b.2,
Warfare                           B.2.b.3

Please provide comments by July 13, 2012.




                                                 ii
Table of Contents

Introduction                                                                    1

      Objective                                                                 1
      Background                                                                1
      Review of Internal Controls                                               4

Finding A. Incomplete Capability Requirements                                   5

      Final Shock Capability Requirements Not Updated in the Capability
         Production Document                                                    5
      Delay in Finalizing Shock Requirement                                     6
      Draft Capability Production Document Needs to Include All
        Required Information                                                    8
      Conclusion                                                                9
      Revised, Added, and Renumbered Recommendations                            9
      Recommendations                                                          10
      Management Comments Required                                             10

Finding B. Shortfalls in Test Planning to Support the Low-Rate Initial
              Production Decision                                              11

      Program Office Plans to Delay Shock Testing                              12
      Operational Assessment Canceled                                          13
      Production Readiness Reviews Needed                                      13
      Planned Testing Not Synchronized or Fully Defined                        15
      Navy Could Commit to Acquiring Low-Rate Initial Production OASIS Units
        of Unknown Operational Performance and Producibility                   16
      Recommendations                                                          17
      Management Comments Required                                             17

Appendices

      A. Scope and Methodology                                                 18
            Use of Computer Processed Data                                     18
            Use of Technical Assistance                                        19
            Prior Coverage                                                     19
      B. OASIS Components and Related Mine Countermeasure Systems              20
            OASIS Description                                                  20
            Related Mine Countermeasures Systems                               22

Glossary                                                                       25
Introduction
Objective
This is the second of two reports addressing the acquisition of the Organic Airborne and Surface
Influence Sweep (OASIS). The overall audit objective was to determine whether the Navy was
effectively preparing the program for the low-rate initial production (LRIP) phase of the
acquisition process. In this report, we discuss the Navy’s effectiveness in establishing
requirements and planning testing to support procuring the OASIS after the LRIP decision
review. In our first draft report, Report No. DoDIG-2012-081, “Navy Organic Airborne and
Surface Influence Sweep Program Needs Defense Contract Management Agency Support,”
April 27, 2012, we determined whether the Defense Contract Management Agency support of
the OASIS development contract was effective. See Appendix A for a discussion of the audit
scope and methodology and prior coverage.

Background
The OASIS is an Acquisition Category II major defense system that is in the engineering and
manufacturing development (EMD) phase of the acquisition process. The Navy established the
OASIS as an acquisition program in April 2002. As of January 2012, the OASIS program
management spent $111.6 million of research, development, test, and evaluation funds. The
Navy is developing the OASIS in preparation for the LRIP decision planned for the second
quarter of FY 2013.

The OASIS program experienced a significant schedule delay and cost growth in system
development since the Assistant Secretary of the Navy for Research, Development, and
Acquisition initiated the program in April 2002. Specifically, at program initiation, the Navy
scheduled the LRIP decision to occur between January and July 2005 and estimated the research,
development, test, and evaluation cost to be $55.1 million. As of January 2012, the program
budget document showed that the OASIS LRIP was scheduled for the second quarter of FY 2013
and estimated the research, development, testing, and evaluation cost to be $135.4 million. The
schedule delay and cost increase resulted from system design changes, most notably the
development of the body-mounted electrode needed to alleviate corrosion, towing, and
electrical-related problems. As of January 2012, the total expected cost to develop and procure
the OASIS was $290.5 million.

Funding and Contract Data
As of January 2012, the program’s budget to develop and procure the system totaled
$135.4 million in research, development, test, and evaluation funds, including three OASIS
engineering development models. On April 26, 2002, the Navy awarded a $25 million contract
to develop the OASIS to EDO (now known as ITT Exelis, Inc.). As of November 2011, the
contract was valued at $55.6 million.

Mission and System Description
The OASIS is a minesweeping system designed to be towed by the MH-60S Multi-Mission
Combat Support helicopter (the MH-60S helicopter) deployed from the Littoral Combat Ship.
When fielded, the OASIS will generate and impart underwater magnetic and acoustic signature

                                               1
fields to provide a high-speed influence minesweeping 1 capability. The Navy will use OASIS
when mine hunting is not feasible, mines are difficult to detect, and avoiding mined areas is not
an option. The Navy plans to install the Airborne Mine Countermeasures (AMCM) mission kit
to integrate OASIS hardware and software with the MH-60S helicopter.

                           Figure. MH-60S Helicopter Towing the OASIS




         Source: Program Manager, Mine Warfare

Related Organic Airborne Mine Countermeasure Systems
The Navy plans to develop and separately install three additional organic AMCM systems on the
MH-60S helicopter. The AMCM systems are the:
             •   Sonar Mine-Detecting Set (AQS-20A),
             •   Airborne Laser Mine Detection System, and
             •   Airborne Mine Neutralization System.
The OASIS, the three AMCM systems, and the MH-60S helicopter will work together from the
Littoral Combat Ship to meet the Navy’s AMCM requirements, which include detecting,
identifying, and neutralizing mines. Appendix B provides details on the OASIS and the other
AMCM systems, including an illustration of the systems working together to perform the
AMCM mission.

Program Management
Until July 2011, Program Executive Officer (PEO) for Littoral and Mine Warfare and the
Program Manager, Mine Warfare (PM-Mine Warfare) were responsible for OASIS program
management, to include system-specific test and evaluation. In July 2011, the Assistant
Secretary of the Navy for Research, Development, and Acquisition disestablished the PEO for
Littoral and Mine Warfare and established the PEO for Littoral Combat Ships (PEO [LCS]). He
then aligned the PM-Mine Warfare and other program managers responsible for delivering
Littoral Combat Ship mission systems, under the newly established PEO (LCS).


1
 Influence minesweeping is the ability of the OASIS to mimic a ship’s magnetic or acoustic signature, which then
causes mines to explode.

                                                        2
The PEO for Air Antisubmarine Warfare, Assault, and Special Mission Programs and the
Program Manager, Multi-Mission Helicopter (PM-Multi-Mission Helicopter), were responsible
for integrating OASIS into the MH-60S helicopter. The PM-Multi-Mission Helicopter and the
PM jointly participate in activities to determine whether the OASIS, integrated with the MH-60S
helicopter, can meet specifications and perform the minesweeping mission. To maximize the
overall effectiveness of test and evaluation, the “Test and Evaluation Master Plan for the Multi-
Mission Combat Support Helicopter,” February 1, 2011, states that representatives from both
program offices will work together through the integrated test team.

The Naval Surface Warfare Center-Panama City (NSWC-PC) is the Navy’s technical agent for
all aspects of mine warfare. NSWC-PC provided technical advice to the PM during OASIS
development to define system capability, engineering, testing, logistics support, and training
requirements. NSWC-PC also assisted the PM, and PM-Multi-Mission Helicopter, in integrating
OASIS with the MH-60S helicopter.

Defining Capability Requirements Policy and Guidance
Chairman of the Joint Chiefs of Staff Instruction 3170.01H, “Joint Capabilities Integration and
Development System,” January 10, 2012, provides a framework for the process of identifying,
validating, and prioritizing capability requirements through the Joint Capabilities Integration and
Development System (JCIDS). The Instruction requires the program sponsor to complete the
Capability Production Document (CPD) during the EMD phase. The CPD describes the actual
performance of the primary system that will deliver the required capability.

Chairman of the Joint Chiefs of Staff, “Manual for the Operation of the Joint Capabilities
Integration and Development System,” January 19, 2012 (the JCIDS Manual), provides
guidelines and procedures for operating the JCIDS. The JCIDS Manual includes procedures for
conducting an analysis and for developing and staffing the documents that define system
capability requirements, including the CPD. The JCIDS Manual states that the CPD provides
testable required capabilities for the production and deployment phase of an acquisition program.

Planning LRIP Policy and Guidance
DoD Instruction 5000.02, “Operation of the Defense Acquisition System,” December 2008,
establishes a management framework for translating approved capability needs and technology
opportunities into stable and well-managed weapon system acquisition programs. Before an
acquisition program transitions from the EMD phase of the acquisition process to LRIP, DoD
Instruction 5000.2 requires that program achievements include:
   •   acceptable system performance in developmental test and evaluation and in operational
       assessment,
   •   mature software capability,
   •   insignificant manufacturing risks,
   •   acceptable interoperability,
   •   demonstrated system affordability throughout the life cycle, and
   •   approved CPD.

                                                 3
The Defense Acquisition Guidebook complements the policies provided in DoD
Instruction 5000.2 by providing discretionary best practices that program managers should tailor
to the needs of each program. Each chapter lists potential ways the PM can satisfy mandatory
process requirements, such as those associated with LRIP planning.

The Navy’s Commander, Operational Test and Evaluation Force (COMOPTEVFOR)
Instruction 3980.1, “Operational Test Director’s Manual,” April 23, 2008, provides policies and
procedures for planning and conducting operational test and evaluation of new and improved
weapon systems. The Instruction includes policies and procedures for performing operational
assessments in support of the LRIP decision. The focus of the operational assessment includes
assessing the capability of a system to meet performance goals in operational effectiveness and
suitability.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified control weaknesses in defining system requirements
and test planning. Specifically, we determined that the Navy did not update capability
requirements in the draft CPD and did not verify that the draft CPD included required
information on technology and manufacturing readiness, joint capability areas, and threat
environment. Also, we determined that the Navy planned the LRIP decision review to occur in
the second quarter of FY 2013 before the system completed shock testing and iterative
(periodically repeated) production readiness reviews and did not fully plan the testing of OASIS
to integrate with the MH-60S helicopter. We will provide a copy of the report to the senior
official responsible for internal controls in the Department of the Navy.




                                               4
Finding A. Incomplete Capability Requirements
The Deputy Chief of Naval Operations for Integration of Capabilities and Resources (N8) did not
finish defining capability requirements for the OASIS in the draft CPD to support the low-rate
initial production decision program review proposed for second quarter FY 2013. Specifically,
the N8 did not update the draft CPD after a contractor analysis showed that the OASIS would not
work after sustaining a shock wave of 65 percent of the required capability for resisting shock.
Additionally, the draft CPD did not contain information required by the JCIDS Manual,
including:
   •   a Technology and Manufacturing Readiness Assessment section,
   •   the joint capability areas to which OASIS will contribute, and
   •   the latest threat assessment.
N8 and the NSWC-PC Mine Warfare Systems Division did not complete an analysis in a timely
manner to determine the lowest shock capability requirement compatible with OASIS mission
effectiveness. Specifically, on June 15, 2011, the OASIS Systems Engineer at NSWC-PC stated
that N8 had not funded additional analyses to determine a defensible and realistic shock
requirement. On November 28, 2011, the AMCM requirements officer for N8 stated that the
NSWC-PC had completed an OASIS shock analysis. The incomplete and outdated CPD
occurred because N8 and the NSWC-PC did not review the draft CPD to verify that it was
current and prepared in accordance with the JCIDS Manual.

Without defined shock capability requirements and a revised CPD, the Navy may not be able to
determine whether the OASIS system is operationally effective and suitable, as well as
affordable to produce and deploy. Reducing the existing shock capability requirement will put
the OASIS at risk of increased system failures during minesweeping operations. Increased
system failures will require the Navy to procure, stock, and maintain additional numbers of the
most shock vulnerable subsystems on the LCS to allow for timely replacement. Additionally, N8
must update the draft CPD to include required information on technology and manufacturing
readiness, joint capabilities areas, and the threat environment to capture the information
necessary to support testing, developing, and producing an affordable and supportable system.

Final Shock Capability Requirements Not Updated in
the Capability Production Document
The N8 did not update the draft, “Capability Production Document for Organic Airborne and
Surface Influence Sweep,” December 15, 2008, after the contractor’s analysis showed that the
OASIS would likely not meet the shock capability requirement. The shock capability
requirement is a system attribute that measures the OASIS capability to continue working,
without degradation, after it has induced a mine to explode and has been hit with the resultant
shock wave. When drafting the CPD, N8 carried over the shock requirement from the,
“Operational Requirements Document for Organic Airborne and Surface Influence Sweep,”
January 10, 2001. In June 2011, the NSWC-PC Mine Warfare Systems Division systems
engineer for OASIS stated that N85 had not funded further analysis to determine a defensible
and realistic shock requirement based on the use of OASIS and anticipated operational analysis.


                                               5
According to the NSWC-PC systems engineer, the contractor analysis showed that the most
vulnerable component of the OASIS, the Inverter Power Source, 2 would remain functional after
sustaining a shock wave at 45 percent of the threshold (minimally acceptable) shock capability
requirement, but would not work after sustaining a shock wave at 65 percent of the threshold
requirement. The systems engineer stated that the contractor’s analysis further showed that the
control electronics subsystem would remain functional after sustaining a shock wave at
65 percent of the threshold shock capability requirement but would not work after sustaining a
shock wave at 85 percent of the threshold requirement.

The JCIDS Manual states that a CPD is finalized after a critical design review of the system.
Specifically, after the critical design review, the sponsor, in collaboration with the acquisition
community, should make tradeoff decisions to refine the threshold and objective (desired) values
from earlier requirements documents and precisely state acceptable performance levels in the
CPD. According to the PM, the Navy conducted the last critical design review for OASIS in
February 2009.

According to the Branch Head of Mine Warfare Division, N8 and NSWC-PC have discussed
design changes that could make the Inverter Power Source and control electronics more resistant
to shock. However, contractor staff stated that a redesign of the Inverter Power Source could
cause complications through electronics overheating and exceed the weight requirement
established for the OASIS system.

Delay in Finalizing Shock Requirement
The delay in finalizing the OASIS shock requirement occurred because N8 and NSWC-PC did
not complete in a timely manner the analysis needed to determine whether a lower threshold
shock requirement would still provide sufficient operational effectiveness. Specifically, on
June 15, 2011, the systems engineer at NSWC-PC stated that the analysis to determine a
defensible and realistic shock capability value for anticipated OASIS operational use was still in
progress.

In response to an audit discussion of preliminary results we presented on August 2, 2011,
program office and N8 staff provided updates concerning finalizing the shock requirement:
    •   August 19, 2011 - The PM stated that the Navy was fully aware of the need for an
        analysis of the shock requirement and that the analysis was ongoing at NSWC-PC and
        was expected to result in an adjusted requirement.
    •   September 13, 2011 - The Deputy PM acknowledged that the current design of the
        OASIS would not completely achieve the shock capability requirement established in the
        2001 operational requirements document. He further stated that the current threat
        analysis showed that the OASIS could meet the shock requirement in most scenarios, and
        that the Navy was considering the cost and benefits of design changes to increase the
        current OASIS shock resistance.

2
 According to prime contractor staff, the Inverter Power Source is a key OASIS component that transforms electric
power into forms compatible with the internal electronics of the tow-body, including the magnetic sweep and the
control electronics.

                                                        6
Additionally on November 28, 2011, the AMCM Requirements Officer for N8 stated that
NSWC-PC had completed an OASIS shock analysis. Specifically, NSWC-PC, Mine Warfare
Systems Division staff analyzed the shock levels generated by various mine threats, combined
with a contractor analysis of the shock resistance capabilities of OASIS subsystems. The
Requirements Officer then stated that the recommended “way forward” for N8 was to buy more
OASIS nose sections (which contain the shock-vulnerable Inverter Power Source and control
electronics) as spares to support minesweeping operations. Further, he stated that the PEO
(LCS) would investigate reducing the cost of the nose sections to make spares more affordable.

NSWC-PC personnel stated that since September 2011, N8 has known that OASIS will be more
vulnerable to shock than originally planned and will not satisfy the shock capability requirements
in the 2001 operational requirements document and the draft CPD. Therefore, N8 must follow
the procedures specified in the JCIDS Manual to justify a reduced shock value in the CPD. The
JCIDS Manual allows the Services to revise CPD threshold values for system attributes, such as
shock capability. However, the JCIDS Manual states that threshold values for system
performance attributes in the CPD are generally expected to be equal or better than those in
earlier requirements documents. When threshold adjustments, such as those for OASIS, involve
reducing values specified in an earlier requirements document, the Manual requires the Services
to answer the following questions in the CPD.
    •   Will the reduced capability still provide sufficient military utility?
    •   If the new capability will replace a fielded capability, will it still provide more military
        utility than the fielded capability?
    •   Is this proposal still a good way to close the capability gap or should another materiel or
        nonmateriel alternative be pursued?
    •   Is the reduced capability worth the additional investments required to continue the
        program to completion?

Therefore, we recommend that the N8 revise the draft CPD to establish and define a realistic
shock capability requirement against which to test the OASIS. Further, the N8 should include in
the draft CPD revision the cost and mission impacts of reducing the system shock capability
requirement, including the system’s ability to meet key performance parameters for mission
performance, to enable the Joint Requirement Oversight Council, or its designated validation
authority, to fully assess whether the OASIS provides acceptable military utility and is worth the
additional investments required to continue the program to completion, in accordance with the
“Manual for the Operation of the Joint Capabilities Integration and Development System,”
January 19, 2012. With the above information, Joint Requirement Oversight Council, or its
designated validation authority, uses the deliberate staffing process 3 defined in the Manual to
determine whether to validate or terminate the CPD requirement. If the Joint Requirements
Oversight Council determines that the OASIS does not provide acceptable military utility or is
not worth the additional investment required to continue the program to completion, the Council
should coordinate with the Assistant Secretary of the Navy for Research, Development, and
Acquisition to identify funding available for reprogramming to other weapons acquisition

3
  As discussed in the JCIDS Manual, the Joint Requirement Oversight Council uses the deliberate staffing process to
review and evaluate CPDs and other submitted requirements documents.

                                                        7
programs. For the OASIS, the shock capability requirement is a system attribute that directly
contributes to meeting the key performance parameter requirements for effectively performing
                                             the minesweeping function. Specifically, if the
  . . . the shock capability requirement is  OASIS does not work after sustaining shock from
         a system attribute that directly    inducing a mine to explode, it cannot complete its
         contributes to meeting the key      mission. If the deliberate staffing process
   performance parameter requirements        determines that OASIS will not provide acceptable
          for effectively performing the     military utility or is not worth the additional
             minesweeping function.          investments required to continue the program to
                                             completion, the Deputy Chief of Naval Operations
for Integration of Capabilities and Resources could then coordinate with the Assistant Secretary
of the Navy for Research, Development, and Acquisition to identify funding available for
reprogramming to other weapons acquisition programs.

Draft Capability Production Document Needs to Include All
Required Information
N8 staff did not include information requirements established in the JCIDS manual for preparing
the CPD and did not review the draft CPD to verify that it contained those requirements and
complete, up-to-date references.

The JCIDS Manual requires the CPD to include:
   •   Technology and Manufacturing Readiness Assessment section, which discusses the
       program’s critical technology elements in accordance with the, “DoD Technology
       Readiness Assessment Guidance,” May 13, 2011. The section must identify any
       manufacturing readiness challenges linked to the program’s key performance parameters;
   •   Joint capability areas, which the DoD uses to review and manage defense capabilities.
       As defined in the, “Joint Capability Area Management Plan,” January 27, 2010, joint
       capability areas are collections of like DoD capabilities functionally grouped to support
       capability analysis, strategy development, investment decision making, capability
       portfolio management, capabilities-based force development, and operational planning;
       and
   •   Latest threat assessment, which summarizes the projected threat environment and the
       specific threat capabilities to be countered. The draft CPD does not reference the latest
       threat assessment.
However, the draft CPD from N8 did not contain the required information. N8 must update the
draft CPD to include required information on technology and manufacturing readiness, the joint
capabilities areas assessed, and the threat environment to capture the information necessary to
support testing, development, and production of an affordable and supportable system. On
November 28, 2011, the AMCM Requirements Officer for N8 stated that he expected that N8
would have the OASIS CPD finalized, staffed, and approved by June 2012.




                                                8
Conclusion
Without defined capability requirements and a revised CPD, the Navy will be hindered in its
ability to determine whether the OASIS system is operationally effective, suitable, and
affordable to produce and deploy. The most significant impact on operational effectiveness and
system affordability for the OASIS will most likely result from the expected shortfall in the
ability to meet the threshold shock capability requirement established in the 2001 operational
requirements document. Specifically, because of lowered shock resistance, staff at N8 and
NSWC-PC stated that they must now consider system failures during minesweeping operations,
which would necessitate stocking the most shock-vulnerable subsystems on the LCS to allow for
timely replacement. The Inverter Power Source is the most costly of the shock-vulnerable
subsystems, with an estimated unit cost of $750,000, representing approximately 20 percent of
the unit cost of an OASIS production unit. During our audit, prime contractor staff mentioned
two potential options for design changes that could increase the shock resistance of the Inverter
Power Source, but provided no cost estimates for either option. At the time of our audit, the N8
staff had not determined how many additional OASIS nose sections (which contain the shock-
vulnerable Inverter Power Source and control electronics) were needed to meet the mission with
a reduced shock capability. The N8 also had not determined whether the LCS would have
sufficient storage for the additional spares.

Revised, Added, and Renumbered Recommendations
Revised Recommendation
In order to clarify Recommendation A.2 in the draft report concerning the cost and mission
impacts of reducing the system shock capability requirement into the draft CPD, we revised the
recommendation to state that the CPD should address whether the program is worth the
additional investments required to continue to completion, in accordance with the JCIDS
Manual.

Added Recommendation
To ensure that the Navy makes the most beneficial use of acquisition funds, we added a
recommendation (Recommendation A.2) that relates to the potential results of implementing our
recommendation for including the cost and mission impacts of reducing the system shock
capability requirement into the draft CPD. Specifically, Recommendation A.2 states that the
Navy should identify funding available for reprogramming to other weapons acquisition
programs if the impact of reducing the OASIS shock capability requirement is that the OASIS
does not provide acceptable military utility or is not worth the additional investments required to
continue the program to completion.

Renumbered Recommendations
Because Recommendations A.1, A.2, and A.3 in the draft report involved modifying the draft
CPD, we have combined them all under Recommendation A.1 as A.1.a, A.1.b, and A.1.c.




                                                 9
Recommendations
We recommend that the Deputy Chief of Naval Operations for Integration of Capabilities and
Resources:

A.1. Revise the draft Organic Airborne and Surface Influence Sweep Capability Production
Document to:
       A.1.a. Establish and define a realistic shock capability requirement against which to test
   the Organic Airborne and Surface Influence Sweep.

       A.1.b. Include the cost and mission impacts of reducing the system shock capability
   requirement, including the system’s ability to meet key performance parameters for mission
   performance, to enable the Joint Requirement Oversight Council, or its designated validation
   authority, to fully assess whether the Organic Airborne and Surface Influence Sweep
   provides acceptable military utility and is worth the additional investments required to
   continue the program to completion in accordance with the “Manual for the Operation of the
   Joint Capabilities Integration and Development System,” January 19, 2012.

       A.1.c. Include the following information as required by the “Manual for the Operation of
   the Joint Capabilities Integration and Development System,” January 19, 2012:

               1). A Technology and Manufacturing Readiness Assessment section.

              2). The joint capability areas to which the Organic Airborne and Surface
   Influence Sweep will contribute.

               3). The latest threat assessment.

A.2. If, as a result of Recommendation A.1.b, the Joint Requirement Oversight Council
determines the Organic Airborne and Surface Influence Sweep does not provide acceptable
military utility or is not worth the additional investments required to continue the program to
completion, the Council should coordinate with the Assistant Secretary of the Navy for
Research, Development, and Acquisition to identify funding available for reprogramming to
other weapons acquisition programs.

Management Comments Required
The Navy did not comment on a draft of this report. We request that the Navy provide
comments on the final report.




                                                   10
Finding B. Shortfalls in Test Planning to Support
the Low-Rate Initial Production Decision
The PM planned the LRIP decision review to occur in the second quarter of FY 2013 before the
system completed shock testing and iterative (periodically repeated) production readiness
reviews. Specifically, the PM:

    •    delayed shock testing because she did not want to delay other testing efforts if OASIS
         models were destroyed or disabled; and
    •    did not schedule iterative production readiness reviews because she considered the single
         production readiness review included in the OASIS contract, with producibility (the
         ability to manufacture a product) considerations during a 2003 critical design review, and
         found the producibility trade-offs made within the design process to be adequate.

Additionally, the PM canceled and did not reschedule an independent operational assessment
because of delays in completing predecessor testing, including air worthiness and contractor
testing with the OASIS integrated with the MH-60S helicopter. Further, the PM did not
synchronize and fully define test planning for the OASIS. Specifically, the PM did not update
the draft OASIS Test and Evaluation Master Plan (TEMP), January 2009, to:
    •    synchronize the planned schedule for developmental testing of OASIS, integrated with
         the MH-60S helicopter, with the developmental test schedule in the February 1, 2011,
         TEMP for the Multi-Mission Helicopter (the MH-60S TEMP); and
    •    address a reliability growth plan 4 in accordance with the “DoD Guide for Achieving
         Reliability, Availability, and Maintainability.”

The PM and her staff did not review the draft OASIS TEMP to verify that testing schedules were
synchronized with MH-60S test planning and that the TEMP was prepared in accordance with
the “DoD Guide for Achieving Reliability, Availability, and Maintainability” because they
delayed all TEMP revisions until N8 finalized OASIS requirements (discussed in Finding A)
needed to support test planning.

As a result, the Navy could commit to acquiring four LRIP OASIS units of unknown operational
performance and producibility at an estimated cost of $15 million. These LRIP units could
require costly retrofits and may not satisfy test requirements in support of the full-rate production
decision, scheduled to occur in the third quarter of FY 2015. In addition, the Navy plans to
acquire 38 more units at a cost of $140.6 million.




4
  A reliability growth plan provides a feasible growth path from a current estimate of reliability to a value of
reliability that is sufficiently high to demonstrate that the system will meet system requirements during Initial
Operational Test and Evaluation.

                                                          11
Program Office Plans to Delay Shock Testing
On April 26, 2005, in the memorandum, “Revision to the Organic Airborne and Surface
Influence Sweep (OASIS) Acquisition Decision Memorandum Dated 15 Apr 2002” (the
2005 program exit criteria 5), the Assistant Secretary of the Navy for Research, Development, and
Acquisition, as the milestone decision authority, approved a revised exit criteria for the LRIP
decision. The criteria required the OASIS to survive shock from nearby detonations to the level
of the required shock factor threshold designated in the 2001 operational requirements document.
However, the PM planned to delay shock testing until after the second quarter of FY 2013 LRIP
decision because she did not want to delay other testing efforts, such as the planned air
worthiness and ongoing contractor weapon system integration tests, if OASIS models were
destroyed or disabled. On June 15, 2011, the Mine Warfare Systems Division Systems Engineer,
NSWC-PC, stated that his staff had only low to medium confidence in the accuracy of shock
performance predictions for OASIS components, including the Inverter Power Source and
electronics control assembly. The PM stated that she may recommend schedule changes for
shock testing to the milestone decision authority, after she has sufficient test results to support
such a decision.

In addition to not meeting the approved exit criteria for the LRIP decision, the Navy’s delay of
                                       shock testing until after the LRIP decision is contrary to
     . . . delay of shock testing      requirements in DoD Instruction 5000.02. The System
   until after the LRIP decision       Capability and Manufacturing Process Demonstration phase
  is contrary to requirements in       that precedes the LRIP decision is intended to demonstrate
     DoD Instruction 5000.02.          the ability of the system to operate in a useful way consistent
with the approved key performance parameters and to demonstrate that system production can be
supported. The demonstration ends when the system meets approved requirements and performs
in its intended environment, using production representative articles. The intended environment
for the OASIS includes withstanding underwater shocks resulting from exploding influence
mines. 6 As discussed in Finding A, the OASIS shock capability requirement is a system
attribute that directly contributes to the OASIS ability to meet the key performance parameter
requirements for effectively performing the minesweeping function. As also discussed in
Finding A, the Navy no longer considers the shock threshold designated in the 2001 operational
requirements document as realistic. Because of the need for the N8 to revise the draft OASIS
CPD to establish and define a realistic shock capability requirement, as provided in
Recommendation A.1., the Assistant Secretary of the Navy for Research, Development, and
Acquisition should revise the exit criteria his predecessor defined in the 2005 program exit
criteria to require the program to meet the updated shock value threshold.


5
  Before each acquisition milestone decision point, the program manager will propose, and the milestone decision
authority will approve, exit criteria (program accomplishments related to important technical, schedule, or
management risk areas) appropriate for proceeding to the next acquisition phase of the program. Unless the
milestone decision authority waives or modifies the approved exit criteria, the program manager must meet the exit
criteria in order to proceed into the next acquisition phase.
6
  Influence mines have sophisticated sensors and firing mechanisms that do not require the target (ship) to make
contact with the mine before the mine explodes. These mines may be fitted with one or a combination of magnetic,
acoustic, or other types of sensors.

                                                        12
Operational Assessment Canceled
The PM and the Navy COMOPTEVFOR scheduled an operational assessment for OASIS to
occur in April 2010 before the LRIP decision. Subsequently, the PM and COMOPTEVFOR
canceled the operational assessment and did not reschedule it because of delays in completing
predecessor testing, including air worthiness and contractor testing with the MH-60S. The
                                            objectives of these tests were to prove integration of
    . . . the PM and COMOPTEVFOR
                                            the OASIS with the MH-60S and system readiness for
  canceled the operational assessment
                                            Government testing. The delays in completing
         and did not reschedule it . . .
                                            predecessor testing were driven by system design
challenges, including modification to add the body-mounted electrode and address tow cable
problems. Additionally, while the draft OASIS TEMP did include an operational assessment, the
assessment involved operating OASIS from an alternate platform, the MH-53 helicopter. Mine
Warfare staff stated that testing the OASIS with the MH-53 helicopter was canceled because the
MH-53 is not representative of the MH-60S. The test lead for OASIS at COMOPTEVFOR
agreed, stating that using the MH-53 would have given a false assessment of OASIS capabilities.
The false assessment would occur because the MH-53 helicopter has a higher towing capacity
than the MH-60S helicopter and would unfairly skew the test results. DoD Instruction 5000.02
and COMOPTEVFOR Instruction 3980.1 require acquisition managers to conduct an operational
assessment before the LRIP decision. COMOPTEVFOR Instruction 3980.1 states that the focus
of the operational assessment is to assess the capability of the system under test to meet
performance goals in operational effectiveness and suitability.

In response to our audit on August 19, 2011, the PM agreed to update the draft OASIS TEMP for
Milestone C to modify the operational assessment to use the MH-60S helicopter, rather than the
MH-53 helicopter, and to coordinate with COMOPTEVFOR in planning the assessment to
support the LRIP decision review. Additionally, on November 8, 2011, program officials
attended an operational assessment scope and planning meeting with COMOPTEVFOR.
Program officials agreed to conduct a 1-month, operational assessment, to begin October 2012 in
support of the LRIP decision.

Production Readiness Reviews Needed
Before our review, the PM and the contractor had not scheduled iterative production readiness
reviews in support of the LRIP decision review. The statement of work in the OASIS contract
(N00024-02-C-6316) included a single production readiness review and the contract did not
clearly state when the review would be conducted. On February 15, 2012, in response to a
discussion draft of our report, the PM stated that the production readiness review was planned for
August 2012, which is before the LRIP decision review in the second quarter of FY 2013 and
therefore is “in accordance with current guidance.”

The Program Manager’s plan for conducting a single production readiness review before the
LRIP decision review was only partially in accordance with guidance in the Defense Acquisition
Guidebook. Specifically, the Defense Acquisition Guidebook states that program managers
should conduct production readiness reviews of the prime contractor and major subcontractors in
an iterative fashion, concurrently with other technical reviews, during the EMD phase. The
Guidebook also states that, as the design progresses through the System Capability and

                                               13
Manufacturing Process Demonstration portion of EMD, program managers should conduct
periodic production readiness reviews to identify and mitigate risks. Program managers should
conduct the final production readiness review on the system at the completion of the EMD phase
and the beginning of LRIP.

During our audit, the PM stated that producibility was also considered as part of the system
design review, including the system-critical design review in 2003 and that producibility trade-
                                      offs were made within the design process. However, the
   . . . when the system design is    OASIS system design had changed significantly.
      not ready for production,       Specifically, the OASIS experienced various design
          programs will incur         changes since the 2003 critical-design review, most
  unacceptable risks of breaching     significantly the PM’s approval in January 2008 to add the
   cost, system performance, or       body-mounted electrode. The body-mounted electrode was
         schedule thresholds.         needed to eliminate corrosion to the tow cable, to alleviate
                                      tow cable twisting, and to allow the OASIS to use the same
tow cable as the airborne mine countermeasure systems. The PM and the contractor conducted
an updated critical design review in 2009 that included some consideration of manufacturing, but
production readiness reviews go beyond the scope of the critical design review and focus on
assessing the manufacturing and quality risks as programs proceed to LRIP and full-rate
production. Specifically, as defined in the Defense Acquisition Guidebook, the production
readiness review provides value by answering critical manufacturing questions:
   •   Are the production facilities ready and are the required workers trained?
   •   Is the detailed design complete and stable enough to enter LRIP?
   •   Is the supply chain established and stable with materials available to meet planned
       production?
   •   Have manufacturing processes been demonstrated in a pilot-line environment?

Overall, the PM and the contractor did not adequately emphasize the producibility of the OASIS
design during the EMD phase of the acquisition process. As a result, on July 14, 2011, the
contractor stated that the current Inverter Power Source design for the OASIS was not
“conducive to production.” The Defense Acquisition Guidebook states that, when the system
design is not ready for production, programs will incur unacceptable risks of breaching cost,
system performance, or schedule thresholds. Performing iterative production readiness reviews
would have provided the PM with earlier awareness of producibility problems that could impact
the ability to meet the 2005 program exit criteria for the LRIP decision review that requires
OASIS to “Demonstrate total program production goals can be achieved within cost projections
of the Acquisition Program Baseline.”

During the audit, the PM stated that in FY 2010, the contractor installed new leadership and
since then, the program office has observed improvement in the contractor’s oversight of
producibility problems. However, the PM also stated that she recognized that producibility must
be a priority as the OASIS program progresses and she has requested producibility funding in the
FY 2013 budget. While the contractor actions and PM observations are encouraging, the
Assistant Secretary of the Navy for Research, Development, and Acquisition should delay the

                                               14
LRIP decision review as necessary for the PM to demonstrate that total program production
goals can be achieved within the cost projects of the Acquisition Program Baseline.

Planned Testing Not Synchronized or Fully Defined
The PM did not synchronize and fully define test planning for the OASIS. Specifically, the PM
did not yet update the draft OASIS TEMP to:
   •   synchronize the planned schedule for developmental testing of OASIS, integrated with
       the MH-60S helicopter, with the developmental test schedule in the TEMP for the Multi-
       Mission Helicopter, February 1, 2011, (the MH-60S TEMP); and
   •   discuss a reliability growth plan.

Developmental Testing Schedules in the TEMPs for OASIS and the
MH-60S Helicopter Do Not Synchronize
The draft OASIS TEMP scheduled the developmental testing phase to begin after the LRIP
                                           decision review. However, it is essential that the PM
    Navy testers analyze the test results  complete the developmental testing phase before the
      to determine how far away the        LRIP decision because this testing will include
      OASIS can influence a mine to        towing OASIS over an instrumented test field
   explode and whether the probability     containing inert mines and documenting how the
       of explosion meets the system       magnetic and acoustic fields that OASIS generates
   performance requirements defined in     compare to those that system models have predicted.
              the draft CPD.               Navy testers analyze the test results to determine how
                                           far away the OASIS can influence a mine to explode
and whether the probability of explosion meets the system performance requirements defined in
the draft CPD. The MH-60S TEMP correctly schedules OASIS developmental testing for
FY 2012, before the LRIP decision review. Further, in Annex D, “AMCM Test Program,” the
MH-60S TEMP states that the OASIS TEMP should complement the TEMPS for the AMCM
systems (including OASIS). DoD Instruction 5000.2 defines the TEMP as a document that
program managers use to plan testing to demonstrate system performance that must include a test
schedule and the test resource requirements necessary to achieve the planned testing.

The PM did not update the draft OASIS TEMP to synchronize scheduled developmental testing
with test planning in the MH-60S TEMP because N8 did not finalize OASIS requirements
(discussed in Finding A). Specifically, the test lead for the PM stated that all OASIS TEMP
revisions were on hold until N8 finalized the CPD, including revised shock requirements. In
response to the audit, on August 19, 2011, the PM stated that the schedule in the draft OASIS
TEMP was “incorrect” and agreed to update the document to include a developmental test phase
before the LRIP decision. The PM’s TEMP update should include shock testing or analysis and
should synchronize the planned schedule for developmental testing of the OASIS integrated with
the MH-60S helicopter, with the developmental test schedule in the “Test and Evaluation Master
Plan for the Multi-Mission Helicopter,” February 1, 2011.




                                               15
Draft OASIS TEMP Did Not Include a Reliability Growth Plan
During the audit, we noted that the draft OASIS TEMP did not include planning for reliability
growth. As previously defined, reliability growth planning provides a feasible growth path from
a current estimate of reliability to a value of reliability that is sufficiently high to demonstrate
that the system will meet system requirements during Initial Operational Test and Evaluation.
Additionally, preliminary information from the PM indicated that the mean time between failures
of a key OASIS subsystem, the Inverter Power Source, may be as low as 10 hours, but the draft
CPD has a threshold requirement of 40 hours mean time between operational mission failures for
OASIS. The draft CPD defines mean time between operational mission failure as any failure
that prevents the OASIS from completing any portion of its mission profile, from conducting
preflight checks to transitioning back to base and completing post mission analysis.

DoD Instruction 5000.02 describes the reliability growth plan as an integral part of the design
and development phase. Further, the Defense Acquisition Guidebook Annex, “Test and
Evaluation Master Plan,” states that, because reliability is a key factor in system development,
the TEMP should identify the amount of system operating time to be accrued during planned
tests. Additionally, the Guidebook states that the TEMP should reference a reliability growth
planning document. The test lead for Mine Warfare stated that the PM did not address the
system reliability growth plan in the draft TEMP because N8 had not finalized the shock
requirement or approved the draft CPD.

In response to our audit, on August 19, 2011, the PM stated that the OASIS was still early in its
testing phase but that reliability data collected to date indicated that a system reliability problem
existed. For example, the mean time between failures for the Inverter Power Source of as low as
10 hours was significantly below the threshold system requirement of 40 hours in the draft CPD.
The PM also stated that program office staff and the contractor would continue to collect
reliability data and would revise the TEMP to include a reliability growth plan. Furthermore, the
OASIS test lead agreed that the draft OASIS TEMP needed to have a section on reliability
growth to support the LRIP decision review. Additionally, on December 12, 2011, the Assistant
PM provided a summary of planned reliability growth activity for OASIS that could be used to
update the draft OASIS TEMP, after N8 approved the draft CPD. The revised summary
references a reliability growth plan and states that program office staff will use data from
MH-60S flight testing to calculate a reliability growth curve. The Assistant PM for OASIS
stated that the draft TEMP was still under revision.

Navy Could Commit to Acquiring Low-Rate Initial Production
OASIS Units of Unknown Operational Performance and
Producibility
The Navy could commit to acquiring four LRIP OASIS units, at an estimated cost of
$15 million, of unknown operational performance because of insufficient test planning and
                                          producibility. These LRIP units could require costly
    . . . the Navy plans to acquire
                                          retrofits and may not satisfy test requirements in
       38 more units at a cost of
                                          support of the full-rate production decision, scheduled
              $140.6 million.
                                          at the end of FY 2013. In addition, the Navy plans to
acquire 38 more units at a cost of $140.6 million. Specifically, if the PM does not complete

                                                 16
shock testing and obtain an operational assessment from COMOPTEVFOR, the milestone
decision authority cannot assess the shock resistance capabilities of OASIS against required
shock capabilities and will not have an independent assessment of risk factors to gauge whether
OASIS will be operationally effective and suitable. If production readiness reviews and
contractor production planning are not performed to determine whether the OASIS design is
ready for production, the OASIS will incur unacceptable risks that may breach program schedule
and cost thresholds.

Recommendations
B.1. We recommend that Assistant Secretary of the Navy for Research, Development, and
Acquisition:
       a. Revise the exit criteria his predecessor defined in the memorandum, “Revision to the
Organic Airborne and Surface Influence Sweep (OASIS) Acquisition Decision Memorandum
Dated 15 Apr 2002,” April 26, 2005, to require the program to meet the updated shock value
threshold the Deputy Chief of Naval Operations for Integration of Capabilities and Resources
provides in response to Recommendation A.1.
         b. Delay the low-rate initial production decision review, as necessary, to enable the
Program Manager, Mine Warfare, to meet the revised exit criteria (resulting from
Recommendation B.1.a) for surviving shock from nearby detonations and to meet the exit
criteria in the memorandum “Revision to the Organic Airborne and Surface Influence Sweep
(OASIS),” April 26, 2005, to demonstrate that total program production goals can be achieved
within the cost projections of the Acquisition Program Baseline.

B.2. We recommend that the Program Manager, Mine Warfare:

       a. Coordinate with the Commander, Operational Test and Evaluation Force, to schedule
an operational assessment for the Organic Airborne and Surface Influence Sweep, integrated
with the MH-60S helicopter, before the low-rate initial production decision review.

       b. Update the draft, “Test and Evaluation Master Plan for the Organic Airborne and
Surface Influence Sweep,” January 2009, to:

               1). Include shock testing or analysis;

               2). Synchronize the planned schedule for developmental testing of the Organic
Airborne and Surface Influence Sweep integrated with the MH-60S helicopter, with the
developmental test schedule in the “Test and Evaluation Master Plan for the Multi-Mission
Helicopter,” February 1, 2011; and

               3). Include a reliability growth plan to support the low-rate initial production
decision review.

Management Comments Required
The Navy did not comment on a draft of this report. We request that the Navy provide
comments on the final report.

                                                17
Appendix A. Scope and Methodology
We conducted this performance audit from March 2011 through March 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We interviewed staff from: Program Executive Office (Littoral Combat Ships), and Mine
Warfare Program Office, Washington Navy Yard; and the Program Executive Office for Air-
Antisubmarine Warfare, Assault, and Special Mission Programs and the Multi-Mission
Helicopter Program Office, Patuxent River, Maryland. We also interviewed staff from the
offices of DoD Director, Operational Test and Evaluation, Alexandria, Virginia; the Deputy
Chief of Naval Operations, Pentagon; the Commander, Operational Test and Evaluation Force,
Alexandria, Virginia; the Commander, Naval Surface Warfare Center, Panama City, Florida; and
the Director, Defense Contract Management Agency, Orlando, Florida. Further, we toured the
ITT corporation facility in Panama City, Florida, which was responsible for designing and
building the OASIS and observed three engineering developmental models of OASIS.

We collected, reviewed, and analyzed documents dated from January 2001 through
January 2012. We reviewed the “Operational Requirements Document for Organic Airborne and
Surface Influence Sweep,” January 12, 2001; the draft “Capability Production Document for
Organic Airborne and Surface Influence Sweep,” December 15, 2008; the draft “Test and
Evaluation Master Plan for the Organic Airborne and Surface Influence Sweep,” January 2009;
and the “Multi-Mission Combat Support Helicopter (MH-60S) Test and Evaluation Master
Plan,” February 2011.

To determine whether the Navy was effectively establishing requirements and planning testing to
support procuring the OASIS after the LRIP decision review, we reviewed program planning and
reporting documentation against the policies and guidance in the following DoD and Navy
issuances:

   •   Chairman of the Joint Chiefs of Staff Instruction 3170.01H, “Joint Capabilities
       Integration and Development System,” January 10, 2012;
   •   Chairman of the Joint Chiefs of Staff “Manual for the Operation of the Joint Capabilities
       Integration and Development System,” January 19, 2012;
   •   DoD Instruction 5000.02, “Operation of the Defense Acquisition System,”
       December 2008;
   •   Defense Acquisition Guidebook;
   •   COMOPTEVFOR Instruction 3980.1, “Operational Test Director’s Manual, April 23,
       2008.

Use of Computer Processed Data
We did not use computer-processed data to perform this audit.


                                                18
Use of Technical Assistance
An electrical engineer and a computer and electronics engineer from the Technical Assessment
Directorate, DoD Office of Inspector General, assisted with the audit. The engineers assisted the
team in evaluating and reviewing OASIS systems engineering, test and evaluation, and other
acquisition planning related documentation.

Prior Coverage
During the last 5 years, the DoD Inspector General (IG) has issued one report discussing OASIS.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

Report No. DoDIG-2012-081, “Navy Organic Airborne and Surface Influence Sweep Program
Needs Defense Contract Management Agency Support,” April 27, 2012




                                               19
Appendix B. OASIS Components and Related
Mine Countermeasure Systems
When fielded, the OASIS will generate and impart underwater magnetic and acoustic signature
fields to provide a high-speed influence minesweeping capability. Influence minesweeping is
the ability of the OASIS to mimic a ship’s magnetic or acoustic signature, which then causes
mines to explode. OASIS uses its influence ability to neutralize sea mines in areas where mine
hunting is not possible due to mine burial or high bottom clutter. OASIS is just one of the four
AMCM systems that the Navy plans to develop and install on the MH-60S helicopter.

OASIS Description
The OASIS, integrated with the MH-60S helicopter, can be subdivided into three major
components: the aircraft system, the AMCM mission kit, and the OASIS Tow Body and Power
Distribution Unit.

Aircraft System
The aircraft system component includes all of the aircraft systems used to support OASIS during
AMCM missions. Specifically, this system component includes the MH-60S helicopter,
modified for towing, and an embedded global positioning system and/or inertial navigation
system, radar altimeter, electrical power, and hydraulic pressure. Figure B-1 shows the MH-60S
helicopter.

                                 Figure B-1. MH-60S Helicopter




         Source: Multi-Mission Helicopter Program Office (PMA 299)

                                                  20
AMCM Mission Kit
The Navy will use AMCM mission kit components to integrate OASIS with the MH-60S
helicopter. The mission kit consists of the carriage, stream, tow, and recovery system (a pylon
extending from the port cargo door of the helicopter, a winch, and a tow cable) and the common
console. The common console resides in the MH-60S helicopter and provides all control and
monitoring for the OASIS and the carriage, stream, tow, and recovery system.

Figure B-2 shows how the AMCM mission kit, including the carriage, stream, tow, and recovery
system and the common console installs into the MH-60S helicopter. Figure B-2 also shows the
tow point attachment for the tow cable.

           Figure B-2. AMCM Mission Kit Installed Into the MH-60S Helicopter




    Source: Multi-Mission Helicopter Program Office (PMA 299)

OASIS Tow Body and Power Distribution Unit
The OASIS tow body component includes the following subsystems: acoustic influence,
magnetic influence, control and monitoring, and power. The acoustic influence subsystem
includes a rotating impeller that creates expanding bubbles that subsequently collapse, creating
acoustic output to simulate a ship. The magnetic subsystem includes a body-mounted electrode,
a power inverter, and a 405-foot sweep or electrode cable, which using electricity from the
power system, work together to create a magnetic influence field. The control and monitoring
subsystem contains all components to control the tow body and to communicate with the
common console in the MH-60S helicopter. All of these subsystems and their components
reside in the OASIS tow body, with the exception of the power distribution unit, a component of



                                                  21
the power subsystem in the MH-60S helicopter. The power distribution unit feeds electric
power, from the helicopter to the OASIS tow body, through the tow cable. Figure B-3 shows the
subsystems within the OASIS tow body.

                           Figure B-3. OASIS Tow Body Subsystems




  Source: Naval Surface Warfare Center-Panama City, Florida

Related Mine Countermeasures Systems
The Navy plans to develop and install three other related organic AMCM systems separately on
the MH-60S helicopter. These systems include the:
           •   AQS-20A Mine-Hunting Sonar, a towed, underwater mine-detection sonar that
               employs an electro-optic identification sensor to locate and identify bottom, close-
               tethered, and moored sea mines (the Navy also plans to tow the Mine-Hunting
               Sonar with the Remote Multi-Mission Vehicle, which is an unmanned snorkeling
               submersible vehicle);
           •   Airborne Laser Mine Detection System, a high-area coverage, electro-optic
               AMCM laser system that locates and identifies floating and near-surface moored
               sea mines; and
           •   Airborne Mine Neutralization System, an expendable, remotely operated device
               that will reacquire previously identified bottom mines and neutralize them using
               the Archerfish Common Mine Neutralizer.



                                                   22
DoD Inspector General issued Report D-2007-0084, “Acquisition of the Navy Rapid Airborne
Mine Clearance System,” April 11, 2007, on a fourth AMCM system, the Rapid Airborne Mine
Clearance System, which was to be an MH-60S-deployed system capable of reacquiring and
neutralizing near surface and floating mines using projectile fired from a Mark 44 Bushmaster II
gun. In the report, we recommended that the system not enter the LRIP phase of the acquisition
process until it had demonstrated that it could operate and function with the MH-60S helicopter.
According to the N8 Branch Head of Mine Warfare Division, in 2010 the Navy eliminated
funding because the Rapid Airborne Mine Clearance System did not demonstrate the ability to
neutralize mines when installed in the MH-60S helicopter.

In addition to the AMCM systems, the Navy was also developing the prototype Unmanned
Influence Sweep System, which involves an unmanned surface vehicle towing a surface
minesweep. The Navy expects to have a Milestone B Program Initiation decision at the end of
FY 2012 for the Unmanned Influence Sweep System.

Figure B-4 shows the capabilities (classify/identify, neutralize, or sweep) of OASIS and related
mine countermeasures systems against various mine threats. These capabilities can be divided
into two categories: mine hunting and minesweeping. In clearing a mined area, the Navy’s
countermine force will first complete mine hunting, which includes detecting and classifying
mine-like contacts, identifying each contact as a mine or a nonmine/mine-like bottom object, and
then neutralizing the mines. After completing mine hunting, the countermine force will perform
minesweeping to remove any mines that were not identified and neutralized during mine hunting.




                                               23
            Figure B-4. Capabilities of OASIS and Related MCM Systems




Source: Naval Surface Warfare Center-Panama City Division
Acronyms:
    ID - Identification
    ALMDS - Airborne Laser Mine Detection System
    AMNS - Airborne Mine Neutralization System
    AQS-20A - Designator for the Mine-Hunting Sonar
    RMV - Remote Multi-Mission Vehicle
    UISS - Unmanned Influence Sweep System




                                                24
Glossary
Acquisition Category
Acquisition Categories include categories I, II, and III. Acquisition Category I programs have
the highest dollar value and have the Defense acquisition executive as the milestone decision
authority. Acquisition Category II and III programs have relatively lower dollar values and the
component (Army, Navy, Air Force) acquisition executive, or designee, serve as the milestone
decision authority.

Acquisition Phase
Acquisition phase refers to all the tasks and activities needed to bring a program to the next
major acquisition milestone. Acquisition phases provide a logical means of progressively
translating broadly stated capabilities into well-defined, system-specific requirements and
ultimately into operationally effective, suitable, and survivable systems.

Developmental Testing and Evaluation
Developmental testing and evaluation is any testing used to assist in the development and
maturation of products, product elements, or manufacturing or support processes. It also
includes any engineering-type testing used to verify the status of technical progress, verify that
design risks are minimized, substantiate achievement of contract technical performance, and
certify readiness for initial operational testing. Development tests generally require
instrumentation and measurements and are accomplished by engineers, technicians, or soldier
operator-maintainer test personnel in a controlled environment to enable failure analysis.

Engineering and Manufacturing Development (EMD) Phase
EMD is the third acquisition phase of the program life cycle, as defined and established by DoD
Instruction 5000.02. This phase consists of two efforts, integrated system design and system
capability and manufacturing process demonstration, and begins after acquisition Milestone B.
A program planning to proceed into system capability and manufacturing process demonstration
at the conclusion of integrated system design will first undergo a post-critical design review
assessment to confirm design maturity and the initial product baseline.

Initial Operational Test and Evaluation
Initial Operational Test and Evaluation is testing conducted on production, or production
representative articles, to determine whether systems are operationally effective and suitable to
support a full-rate production decision.

Joint Capabilities Integration and Development System (JCIDS)
JCIDS implements the DoD requirements process. Specifically, JCIDS supports the Chairman
of the Joint Chiefs of Staff and the Joint Requirements Oversight Council in identifying,
assessing, and prioritizing joint military capability needs, as required by law. The capabilities
are identified by analyzing what is required across all joint capability areas to accomplish the
mission.




                                                 25
Key Performance Parameters
Key performance parameters are those attributes or characteristics of a system considered critical
or essential to the development of an effective military capability and that make a significant
contribution to the characteristics of the future joint force. A key performance parameter
normally has a threshold representing the minimum acceptable value achievable to low-to-
moderate risk, and an objective, representing the desired operational goal but at higher risk in
cost, schedule, and performance.

Low-Rate Initial Production (LRIP)
LRIP is the first effort of the Production and Deployment acquisition phase. This effort is
intended to result in completion of manufacturing development in order to verify adequate and
efficient manufacturing capability and to produce the minimum quantity necessary to provide
production-representative articles for initial operational test and evaluation. LRIP establishes an
initial production base for the system and permits an orderly increase in the production rate for
the system, sufficient to lead to full-rate production upon successful completion of operational
(and live-fire, where applicable) testing. At Milestone B, the milestone decision authority
determines the LRIP quantity for major defense acquisition programs and major systems.

Operational Effectiveness
Operational effectiveness is the measure of the overall ability of a system to accomplish a
mission when used by representative personnel in the environment planned or expected for
operational employment of the system considering organization, doctrine, tactics, supportability,
survivability, vulnerability, and threat.

Operational Suitability
Operational suitability is the degree to which a system can be placed and sustained satisfactorily
in field use with consideration being given to availability, compatibility, transportability,
interoperability, reliability, wartime usage rates, maintainability, safety, human factors,
habitability, manpower, logistics supportability, natural environmental effects and impacts,
documentation, and training requirements.

Operational Test and Evaluation
Operational test and evaluation refers to the field test, under realistic conditions, of any item (or
key component) of weapons, equipment, or munitions for the purpose of determining the
effectiveness and suitability of the weapons, equipment, or munitions for use in combat by
typical military users; and the evaluation of the results of such tests.

Production and Deployment Phase
The Production and Deployment phase is the fourth phase of the life cycle (after EMD) as
defined and established by DoD Instruction 5000.02. This phase consists of two efforts: low-rate
initial production and full-rate production and deployment, separated by the full-rate production
decision review. The Production and Deployment phase begins after a successful Milestone C
review. The purpose of this phase is to achieve an operational capability that satisfies the
mission need.



                                                  26
Program Executive Officer (PEO)
The program executive officer is a military or civilian official who has responsibility for
directing multiple program managers for assigned acquisition programs. A PEO reports to, and
receives guidance and direction from, the DoD component acquisition executive.

Program Manager
The program manager is a designated individual with responsibility for and authority to
accomplish program objectives for development, production, and sustainment to meet the user’s
operational needs. The program manager shall be accountable for credible cost, schedule, and
performance reporting to the milestone decision authority.

Test and Evaluation Master Plan (TEMP)
The TEMP documents the overall structure and objectives of the Test and Evaluation (T&E)
program. It provides a framework within which to generate detailed T&E plans and documents
schedule and resource implications associated with the T&E program. The TEMP identifies the
necessary Developmental Test and Evaluation (DT&E), Operational Test and Evaluation
(OT&E), and Live Fire Test and Evaluation (LFT&E) activities. It relates program schedule, test
management strategy and structure, and required resources to: Critical Operational Issues
(COIs), Critical Technical Parameters (CTPs), objectives and thresholds documented in the
Capability Development Document (CDD), evaluation criteria, and milestone decision points.




                                              27
